                            SOCIAL SECURITY
                                  September 30, 2004




The Honorable Susan M. Collins
Chairwoman, Committee on
 Governmental Affairs
United States Senate
Washington, D.C. 20510

Dear Madam Chairwoman:

At a June 28, 2004 briefing, representatives of your staff requested that we conduct a
survey and audit of educational institutions’ policies and practices of issuing work
authorization letters to help foreign students obtain a Social Security number. The
enclosed report summarizes our survey results. As we discussed with your staff, we will
send a report summarizing our audit findings by December 31, 2004.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Assistant Inspector General for
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Acting Inspector General

Enclosure

cc:
Jo Anne B. Barnhart




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Survey of Educational Institutions’
  Issuance of Work Authorization
 Documents to Foreign Students

           A-08-04-24102




           September 2004
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                          Background
OBJECTIVES

At a June 28, 2004 briefing, staff members for the Senate Committee on Governmental
Affairs (Committee) requested that we conduct a survey and audit examining
educational institutions’ policies and procedures for assisting foreign students in
obtaining Social Security numbers (SSN) by issuing them work authorization letters.
The objectives of our survey were to determine selected educational institutions’
policies and practices for (1) issuing work authorization letters to foreign students and
(2) monitoring the enrollment, attendance and employment of these students.
Additionally, we reviewed actions the Social Security Administration (SSA) is taking to
tighten controls over enumerating foreign students. This report presents the results of
our survey. We will issue a report to the Committee summarizing our audit results in
December 2004.

FOREIGN STUDENTS’ IMMIGRATION CLASSIFICATIONS

Almost 600,000 foreign students were enrolled in educational institutions in the United
States during the 2002-2003 academic year. Students coming to the United States to
pursue full-time academic or vocational studies are admitted under three nonimmigrant
classifications:

    1. the F-1, which includes academic students in colleges, universities, seminaries,
       conservatories, academic high schools, other academic institutions and language
       schools;

    2. the M-1, which relates only to vocational students or other nonacademic
       students; and

    3. the J-1, which covers exchange visitors.

Our survey focused on students with F-1 classifications. We elected to do so because
F-1 foreign students are unique in that they are eligible to work on campus without
obtaining specific approval from the Department of Homeland Security (DHS). Instead,
DHS requires that the school ensure the F-1 student is attending classes full-time and is
in good academic standing. If so, the student is eligible to work on campus up to
20 hours per week while school is in session.




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   1
ASSIGNMENT OF SOCIAL SECURITY NUMBERS TO FOREIGN STUDENTS

Under existing regulations, F-1 students may be eligible to obtain an SSN because they
are permitted to work on campus or in DHS-approved training programs.1 Currently, for
an F-1 student’s SSN application to be approved, the student must provide SSA
evidence of age, identity, legal alien status, full-time enrollment and authorization to
work. To substantiate authorization to work, the F-1 student may provide (1) an official
DHS Employment Authorization Document; (2) Form I-20, Certificate of Eligibility for
Nonimmigrant (F-1) Student Status, with signed authorization for curricular practical
training approved by the designated school official; or (3) third-party documentation
from the school or on-campus employer specifying that the student is eligible or
authorized to work on-campus.2

In December 2003, SSA published a draft regulation, Evidence Requirements for
Assignment of Social Security Numbers (SSNs); Assignment of SSNs to Foreign
Academic Students in F-1 Status.3 The Office of Management and Budget approved
the regulation, and the final version was published in the September 13, 2004 Federal
Register. Effective October 13, 2004, in addition to evidence of age, identity,
immigration status and work authorization, F-1 Students without a DHS Employment
Authorization Document or authorization for curricular practical training on the student's
I-20, must provide evidence of both an on-campus work authorization and that the
student has secured employment or a promise of employment, before the agency will
assign an SSN.4 Additional background information can be found in Appendix B.

SURVEY SCOPE AND METHODOLOGY

To accomplish our survey objectives, we interviewed representatives at
25 DHS-approved educational institutions that admit F-1 students. A list of these
schools is provided in Appendix C. Our interviews were designed to determine the
schools’ policies and practices for (1) issuing work authorization letters to facilitate
F-1 students’ attainment of SSNs and (2) monitoring the enrollment, attendance and
employment of these students. In December 2003, we issued a Management Advisory
Report: The Social Security Administration’s Procedures for Enumerating Foreign
Students (A-05-03-23056). While performing this review, we interviewed
representatives at large universities with significant foreign student populations. In our
current survey, we selected smaller educational institutions with a diverse mixture of
student populations and academic subjects such as language, nursing, art, aeronautics,
and religion. We also included some community colleges as well as schools offering
on-line degrees.

1
 SSA Program Operations Manual System (POMS) § RM 00203.470 and 20 Code of Federal
Regulations §§ 422.104 and 422.105.
2
    SSA Policy Instruction Emergency Message (EM)-02093 SEN and EM-04001Rev.
3
    Federal Register (FR), Volume 68, Number 241, (68 FR 69978), December 16, 2003.
4
    FR, Volume 69, Number 176, (69 FR 55065), September 13, 2004.



Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   2
We conducted our survey in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections. We did not verify the schools’ responses
to our survey questions. Instead, we will perform an audit in Fiscal Year 2005 to
determine whether F-1 students receiving work authorization letters from schools and
subsequently assigned SSNs actually enroll, attend classes and are employed on
campus. Additional information regarding our survey scope and methodology is
provided in Appendix D.




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   3
                                                                  Survey Results
One of the reasons foreign students elect to study in the United States is to obtain an
excellent education. Foreign students bring significant monetary and cultural
contributions to the United States. Therefore, we understand the necessity to balance
students’ and schools’ needs and desires with current homeland security concerns.
One common desire and perceived need among foreign students is an SSN. Given the
use of the SSN as an identifier nationwide, many foreign students believe they cannot
adequately function in this country without one. Although we understand these
concerns, given our mission of protecting the integrity of the SSN, we believe it is
necessary to limit its assignment and use to purposes provided for in Federal law.

We were encouraged to learn that some educational institutions had tightened controls
over the issuance of work authorization letters to foreign students with F-1 immigration
classifications. Still, most of the educational institutions we interviewed continue to
assist F-1 students in obtaining SSNs by providing work authorization letters, even if the
students have no immediate intent to work on campus. These schools do so because
the students (1) are eligible to work on campus by having an F-1 immigration status5
(if certain conditions are met as prescribed by DHS regulations) and/or (2) state they
eventually plan to pursue on-campus employment. Currently, immigration policy and
SSA regulations permit both of these circumstances.

Many of the representatives we interviewed agreed that SSN integrity would be
strengthened if SSA required proof of a job offer before it assigned SSNs to foreign
students. However, as advocates for these students, the representatives also stated
that, without SSNs, many foreign students will be unable to comfortably function while
they are in the United States. None of the school representatives interviewed reported
a significant number of foreign students who enter the country, obtain an SSN, and
disappear into U.S. society. Rather, most reported that the students needed to rent
apartments, open bank accounts, obtain car insurance and purchase cellular phones.
Typically, vendors require an SSN before providing these services.

ISSUING WORK AUTHORIZATION DOCUMENTS

During our conversations with school representatives, we determined the schools had a
variety of policies governing the issuance of work authorization letters to assist
F-1 students in obtaining SSNs. As illustrated in Figure 1, of the 25 educational
institutions we contacted, 10 provided work authorization letters to F-1 students
because they were eligible to work on campus as a condition of their immigration status
and 5 provided the letters because students indicated they planned to pursue
on-campus employment. We were encouraged to find that seven educational
institutions had already implemented SSA’s recently approved regulation and only
issued work authorization letters after students provided evidence they had found

5
    SSA POMS § RM 00203.470.


Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   4
on-campus employment. Finally, 3 of the 25 institutions did not issue work authorization
letters to their students because (1) 1 school was an on-line university and none of its
foreign students actually entered the United States, (2) 1 school had a limited number of
foreign students and had never received a request for a work authorization letter, and
(3) the final school was a small institution that had very few jobs on campus.


                         Figure 1: Educational Institutions'
                             Policies for Issuing Work
                        Authorization Letters to F-1 Students
                              3                                    Issue Based on On-
                                                                   Campus Employment
                                                                   "Eligibility"

                                                                   Issue Based on
                                                         10        "Intent to Seek On-
                                                                   Campus Employment"
                   7
                                                                   Issue Only With
                                                                   Evidence of On-
                                                                   Campus Job Offer

                                                                   Do Not Issue Work
                                                                   Authorization Letters
                                      5

Additionally, the school representatives we interviewed generally did not follow up with
students after they issued the work authorization letters to ensure these students were
actually working on campus. Therefore, the potential exists that F-1 students at these
schools may provide evidence of a job offer, obtain an SSN, but then decide not to work
on campus. Once an SSN is issued to these students, they may use it to find
unauthorized employment elsewhere in the U.S. economy.

MONITORING STUDENT ENROLLMENT AND ATTENDANCE

All 25 schools we contacted were DHS-approved6 and used the Student and Exchange
Visitor Information System (SEVIS) to monitor their foreign students. Representatives
from these schools reported they had been successful in using SEVIS to track foreign
students’ enrollment and attendance as well as any changes in their status, such as
address changes or withdrawal. Some of the schools reported that, on rare occasions,
they have students that drop out of school after registering. School representatives
stated that, if a student leaves school, they are generally doing so because they are

6
  These schools have permission from DHS to enroll foreign students. This approval conveys no other
recognition or endorsement.



Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   5
returning to their home country as a result of family situations or lack of funding. When
these situations occur, the schools reported that they terminate those students’
immigration status in SEVIS. As a result, although the students may still have the DHS
documents given to them upon their arrival in the United States, the documents are no
longer valid.

TIGHTENING CONTROLS OVER F-1 STUDENT ENUMERATION
AND THE IMPACT OF SUCH ACTIONS

SSA published a regulation, effective October 13, 2004, which will require F-1 students
to provide evidence of both work authorization and employment before they may obtain
an SSN. Most of the school officials we interviewed generally agreed that SSN integrity
would be improved under this new policy. However, the representatives expressed
concern about the students’ need for an SSN to successfully assimilate in U.S. society
and pursue their studies. As such, school representatives suggested that, in concert
with these tightened controls, legislation should be passed prohibiting businesses from
requiring an individual’s SSN as a contingency of service.

According to school officials, foreign students without SSNs sometimes find themselves
paralyzed by the myriad of requests for the number. Several officials likened it to a
“catch 22” scenario. That is, under the new regulation, the F-1 student will not be able
to obtain an SSN without a promise of employment. However, students have a difficult
time finding employment on campus without already having an SSN because most
employers do not want to wait the several weeks it may require for the student to apply
for and obtain the number. Further, without an SSN, foreign students have a difficult
time obtaining the services needed to stay in the United States and attend school, such
as opening bank accounts, obtaining driver’s licenses, leasing apartments, and
purchasing car insurance. Additionally, although an Individual Taxpayer Identification
Number (ITIN) can be an acceptable alternative to the SSN for filing taxes and opening
bank accounts, several school representatives stated the Internal Revenue Service
denied some F-1 students an ITIN because their current immigration status makes them
eligible for an SSN.




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   6
                                                                         Conclusions
Although we were encouraged that several of the educational institutions contacted
during our survey required proof of an on-campus job offer before they assisted
F-1 students in obtaining SSNs, the majority of the schools did not require such proof.
Instead, most of the schools facilitated the attainment of SSNs by issuing F-1 students
work authorization letters simply because the students were eligible to work on-campus
or planned to pursue on-campus employment sometime in the future. Additionally, the
school representatives we interviewed generally did not follow up with students after
they issued the work authorization letters to ensure these students were actually
working on campus. Despite the apparent lack of controls, the schools reported they
rarely learned of a student who obtained an SSN and then dropped out of school to
work elsewhere in the U.S. economy. Rather, they believed foreign students were
seeking SSNs to assist them in functioning in the United States while they are in the
country to study.

We understand foreign students’ concerns regarding their ability to effectively function
and integrate while studying in the United States. As such, we agree that more should
be done to limit the use of the SSN to only legally-sanctioned purposes. However, we
also believe the assignment of SSNs should be limited to only those individuals who
plan to work or receive benefits in the United States. Accordingly, we support the
implementation of SSA’s new regulation, which will limit the assignment of SSNs to only
F-1 students with evidence of on-campus or DHS-approved job offers.




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)   7
                                                 Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Educational Institutions Contacted
APPENDIX D – Scope and Methodology




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)
                                                                                   Appendix A

Acronyms
     DHS                  Department of Homeland Security

     EM                   Emergency Message

     FR                   Federal Register

     ITIN                 Individual Taxpayer Identification Number

     POMS                 Program Operations Manual System

     SEVIS                Student and Exchange Visitor Information System

     SSA                  Social Security Administration

     SSN                  Social Security Number




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)
                                                                                   Appendix B

Background
To be eligible for a Social Security number (SSN), a foreign student with an
F-1 immigration classification must provide

     •   evidence of age and identity;

     •   a Form I-20, Certificate of Eligibility for Nonimmigrant (F-1) Student Status, from a
         DHS-approved school;

     •   a current Form I-94 Arrival/Departure Record; and

     •   evidence of full-time enrollment and authorization to work.

Generally, the designated school official at the respective school furnishes the student
with a work authorization letter. The Department of Homeland Security’s (DHS) intent in
permitting the designated school official to authorize F-1 students to work on campus is
that the designated school official will authorize and refer to the Social Security
Administration (SSA) for SSNs only those students who have either been hired or intend
to work.1

We previously addressed foreign student enumeration in a December 2003 report.2
The report focused on universities with large foreign student enrollments. Of the
15 universities reviewed, 73 percent provided letters to students based on eligibility for
employment established by their status as F-1 students, rather than intent of
employment. Since we issued our prior report, SSA published a draft regulation,
Evidence Requirements for Assignment of Social Security Numbers (SSNs);
Assignment of SSNs to Foreign Academic Students in F-1 Status.3 The Office of
Management and Budget approved the regulation, and the final version was published
in the September 13, 2004 Federal Register.4 Effective October 13, 2004, F-1 students
without a DHS Employment Authorization Document or authorization for curricular
practical training on the student’s I-20, must provide evidence of both on-campus work
authorization and an offer of employment before the Agency will assign them an SSN.


1
    SSA’s Policy Instruction Emergency Message (EM)-02093 SEN.
2
 Management Advisory Report: The Social Security Administration’s Procedures for Enumerating
Foreign Students (A-05-03-23056), December 2003.
3
    Federal Register (FR), Volume 68, Number 241, (68 FR 69978), December 16, 2003.
4
    FR, Volume 69, Number 176, (69 FR 55065), September 13, 2004.



Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)
                                                                                   Appendix C

Educational Institutions Contacted
        Bristol Community College                                Fall River, Massachusetts
        Middlesex Community College                              Lowell, Massachusetts
        Zion Bible Institute                                     Barrington, Rhode Island
        Borough of Manhattan Community College                   New York, New York
        Globe Institute of Technology                            New York, New York
        Zoni Language Center                                     New York, New York
        Northern Virginia Community College                      Alexandria, Virginia
        LADO International College                               Arlington, Virginia
        Lehigh Carbon Community College                          Schnecksville, Pennsylvania
        Reading Area Community College                           Reading, Pennsylvania
        Community College of Philadelphia                        Philadelphia, Pennsylvania
        Embry-Riddle Aeronautical University                     Daytona Beach, Florida
        Florida Metropolitan University                          Pompano Beach, Florida
        Johnson & Wales University                               North Miami, Florida
        Miami International University of Art & Design           Miami, Florida
        Miami Dade College – Kendall Campus                      Miami, Florida
        Elgin Community College                                  Eglin, Illinois
        Global Language Institute                                St. Paul, Minnesota
        Christ for the Nations Institute                         Dallas, Texas
        North Lake College                                       Dallas, Texas
        Tarrant County College                                   Fort Worth, Texas
        Central State University                                 Riverside, California
        Pacific States University                                Los Angeles, California
        University of Santa Monica                               Santa Monica, California
        Yuin University                                          Compton, California




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)
                                                                                   Appendix D

Scope and Methodology
To address the Committee’s concerns related to the potential that some educational
institutions are providing students with work authorization letters even though these
institutions have no intent to hire the students for on-campus employment, we:

• Reviewed the Social Security Administration’s draft regulation Evidence
  Requirements for Assignment of Social Security Numbers (SSNs): Assignment of
  SSNs to Foreign Academic Students in F-1 Status. [The Office of Management and
  Budget approved the regulation, and the final version was published in the
  September 13, 2004 Federal Register.]

• Reviewed public comments received by the Social Security Administration
  addressing the draft regulation.

• Interviewed school representatives at selected educational institutions to gain an
  understanding of their policies for issuing work authorization letters.

Applications for Social Security numbers are processed in the field offices, which are
under the Deputy Commissioner for Operations. Our work was conducted at various
educational institutions (see Appendix C) by the Birmingham, Alabama Office of Audit,
with assistance from Office of Audit staff in Boston, New York, Philadelphia, Falls
Church, Chicago, Dallas and San Francisco during July and August 2004.




Educational Institutions’ Issuance of Work Authorization Documents to Foreign Students (A-08-04-24102)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
